Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





INFORMAL DISPUTE RESOLUTION 

   FOR NURSING FACILITIES





                     Inspector General

                       March 2005
                     OEI-06-02-00750
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as required by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections’ reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
  ∆         E X E C U T I V E              S U M M A R Y




                    OBJECTIVES
                    To determine if all States have written informal dispute resolution
                    (IDR) policies as required by Federal regulations and to describe policy
                    content.

                    To determine if 14 selected States comply with Federal requirements for
                    State IDR notification and closure letters and if nursing facilities in
                    these States comply with the Federal requirements for IDR requests.

                    To determine the length of time taken by States to complete IDR
                    reviews and to identify IDR outcomes for disputed survey deficiencies.


                    BACKGROUND
                    This inspection of the IDR process is part of the Office of Inspector
                    General’s (OIG) ongoing evaluation of the quality of care provided to
                    nursing facility residents, particularly as measured by survey
                    deficiencies and by how States and the Centers for Medicare & Medicaid
                    Services (CMS) manage them. The IDR process is important because it
                    provides nursing facilities the opportunity for avoiding costly formal
                    appeals and for communicating better with State survey agencies about
                    certification standards that facilities must meet. State procedures and
                    outcomes of the IDR process have not previously been studied by OIG.

                    CMS contracts with State agencies to conduct standard surveys of
                    nursing facilities for compliance with the Federal standards no less
                    than once every 15 months. Any deficiency in quality of care, safety, or
                    patient rights, as determined through the surveys, may trigger CMS
                    enforcement action(s). The enforcement regulations for nursing facility
                    certification standards issued after passage of the Omnibus Budget
                    Reconciliation Act of 1987 require all States to provide Medicare- and
                    Medicaid-certified nursing facilities an opportunity for an IDR review to
                    dispute cited deficiencies in patient care and safety.

                    Before proceeding with a formal appeal, which can be costly and
                    lengthy, the IDR process permits the nursing facility to submit
                    documentation supporting its dispute to the State agency for a review
                    that could potentially delete or lower the severity of the cited
                    deficiencies. CMS, which has oversight responsibility for the IDR
                    process, requires in its “State Operations Manual” that States have
                    written IDR policies, although the policy content is not specified. The

OEI-06-02-00750     INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S           i
    E X E C U T I V E         S U      M M A R Y


                  manual also includes instructions States should provide to nursing
                  facilities to request an IDR review, specific details about the IDR
                  process, and circumstances under which a State must inform a nursing
                  facility of an IDR outcome.

                  We analyzed 48 States’ written IDR policies and case documentation for
                  a random sample of 415 IDR reviews done by 14 selected States in
                  calendar year 2002. We determined if States have written IDR policies
                  and the extent to which the States and nursing facilities met the
                  Federal requirements in their actual conduct of IDR reviews. We also
                  used the case documentation provided by the 14 States to determine
                  outcomes for disputed deficiencies and to determine the length of time
                  for States to complete IDR reviews.


                  FINDINGS
                  Forty-eight of fifty States have written IDR policies that are available upon
                  request, as required; however, the content of their written policies varies.
                  Of the 50 States, Alaska and Connecticut did not provide us copies of
                  their own written policies. However, both indicated they provide a copy
                  of the IDR portion of the “State Operations Manual” upon a request for
                  information.

                  Most States’ written IDR policies address the requirements of providing
                  instructions to facilities for an IDR request, including specific details
                  about the IDR, and information on how States will inform nursing
                  facilities of IDRs’ outcomes. Other useful information, although not
                  required, is often omitted. For example, the written policies do not
                  always address inappropriate reasons for an IDR request or that
                  nursing facilities must be notified an IDR review is available to them.
                  Finally, 38 of the 48 States’ policies do not specify time limits for
                  completion of the IDR process.
                  All 14 of the States, for which we reviewed case documentation, are
                  performing IDR reviews and generally comply with the IDR requirements;
                  yet, most notification letters omit some required technical information.
                  State IDR Notification Letters. All notification letters to nursing
                  facilities stated that the nursing facility IDR request must be submitted
                  in writing and must include an explanation of disputed deficiencies.
                  However, few notifications included two required details: only 37
                  percent of notifications indicated how the IDR review would be
                  conducted and only 6 percent indicated by whom.



OEI-06-02-00750   INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S           ii
    E X E C U T I V E         S U      M M A R Y


                  State IDR Closure Letters. The 14 States exceed Federal requirements
                  by routinely sending closure letters to facilities to inform them of all
                  IDR outcomes. Federal requirements specify that States must send
                  closure letters only if the facilities are unsuccessful at demonstrating
                  that deficiencies should not have been cited.
                  Nursing facility IDR requests typically met the requirements.
                  Ninety-nine percent of requests for IDR review were in writing, as
                  required. Eighty-six percent included an explanation of the specific
                  deficiencies being disputed, and 91 percent provided appropriate
                  reasons for the IDR requests.
                  Eighty percent of IDR cases were completed within 60 days, and 45 percent
                  of the disputed deficiencies resulted in citation changes.
                  There is no requirement for IDRs to be completed within 60 days, but it
                  is beneficial if they are done within this timeframe. This is due to the
                  fact that a nursing facility has only 60 days from its receipt of the
                  formal notice of the imposition of any enforcement remedies to formally
                  appeal deficiency citations, whether or not the IDR process is completed.
                  The nursing facility’s decision to pursue a formal appeal could be
                  affected by the outcome of the IDR. On the other hand, deficiency
                  citations are not supposed to be posted on CMS’s Nursing Home
                  Compare Web site, which is available for public reference, until the IDR
                  is completed. Finally, the fact that 45 percent of the disputed
                  deficiencies were changed through the IDR process indicates that IDRs
                  do affect the citation outcomes.


                  RECOMMENDATIONS
                  We recommended that CMS require that the two States without the
                  required written IDR polices, Alaska and Connecticut, prepare them
                  since they are technically noncompliant. Alternatively, CMS should
                  determine if these States’ practice of providing, instead, the IDR portion
                  of CMS’s “State Operations Manual” to nursing facilities satisfies the
                  requirement of written IDR policies. We also recommended that CMS
                  ensure that all required information is included in all States’ IDR
                  notification letters to the nursing facilities. Although not required by
                  law, regulation, or CMS policy, we also identified opportunities for
                  improvement.
                  Agency Comments
                  CMS concurred with our recommendations and suggested opportunities
                  for improvement.

OEI-06-02-00750   INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S        iii
  .....                                                                       . . . . . . . . . . .. ..............................
                                                                  . .. .. . . .. . . . .. . .. . .. .. .. . .. . .. ...




                   B L E


                     EXECUTIVE SUMMARY                                                                                     ......1

                     I N T ROD U C T       ON




                     FINDINGS
                                         ...................................................... 6
                                Written Policies. . . .
Practices of Selected St
                                Nursing Facility Requests. . . . . .
                                Performance. . . . . .


                     R E COM MEN D A
T ION S . . . . . . . . . . . . .
                    A P PEN D I XES.        .
                                A: Inspection Methodology. . . . . . . .
                                B: Calendar Year 2002 State Nursing Facilty IDR Requests. ..                                          20

                                C: Calculated Weights for Selected States ' IDR Cases. . . . . . . ..
                                D: Point Estimates and Confidence           Intervals. . . .
                                E: Requirements in States ' Written Policies. . . . . . . . . . . . . . . ..
                                F: Additional Information in Written State IDR Policies. . . . . . . ' 24
                                G: Centers for Medicare & Medicaid Services Comments. . . . ..


                    A C K NOW LED G MEN T S . . .. .. . .


                    END NOT          E S .................................................... 30
  ∆         I N T R O D U C T I O N



                    OBJECTIVES
                    To determine if all States have written informal dispute resolution (IDR)
                    policies as required by Federal regulations and to describe policy content.

                    To determine if 14 selected States comply with requirements for State
                    IDR notification and closure letters and if nursing facilities within these
                    States comply with the requirements for IDR requests.

                    To determine the length of time taken by States to complete IDR reviews
                    and to identify IDR outcomes for disputed survey deficiencies.


                    BACKGROUND
                    The Omnibus Budget Reconciliation Act of 1987 (OBRA) amended
                    sections 1819 and 1919 of the Social Security Act by requiring all nursing
                    facilities participating in the Medicare and Medicaid programs to meet a
                    common set of certification standards, many of which focus on patient
                    care and safety. The Centers for Medicare & Medicaid Services (CMS)
                    contracts with State agencies to conduct standard surveys of nursing
                    facilities for compliance with the Federal standards no less than once
                    every 15 months. Any deficiency in quality of care, safety, or patient
                    rights, as determined through the surveys, may trigger CMS enforcement
                    action(s).

                    The Administrative Dispute Resolution Act of 1990 required State
                    agencies to develop and implement policies addressing alternative dispute
                    resolution methods. However, it was not until July 1, 1995,1 the effective
                    date of the OBRA enforcement regulations, that alternative dispute
                    resolution became a process requirement for nursing facilities certified for
                    Medicare and Medicaid. For nursing facilities, this process is called IDR.

                    This inspection of the IDR process is part of the Office of Inspector
                    General’s (OIG) ongoing evaluation of the quality of care provided to
                    nursing facility residents, particularly as measured by survey deficiencies
                    and how States and CMS manage them. The IDR process is important
                    because it provides nursing facilities the opportunity for avoiding costly
                    formal appeals and for communicating better with State survey agencies
                    about certification standards that facilities must meet. State procedures
                    and outcomes of the IDR process have not previously been studied by
                    OIG.




OEI-06-02-00750     INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S         1
    I N T R O D 
U C T      I O N


                  Informal Dispute Resolution
                  Nursing facilities have both a formal and an informal process for
                  disputing cited deficiencies resulting from standard surveys. The nursing
                  facility may file a formal appeal request within 60 days of the facility’s
                  receipt of the formal notice of the imposition of any enforcement remedies
                  resulting from the cited survey deficiencies. The purpose of the formal
                  appeal is to provide the nursing facility a structured review of disputed
                  deficiencies by the Departmental Appeals Board of the Department of
                  Health and Human Services.

                  Effective July 1, 1995, as part of the nursing facility enforcement
                  regulations, CMS required States to provide nursing facilities the
                  opportunity for IDR reviews in order to avoid the potentially prolonged
                  resolution process associated with more formal appeals. The IDR process
                  does not prevent a nursing facility from pursuing a formal appeal of the
                  disputed deficiency concurrently or at a later date. CMS incorporated
                  IDR procedural requirements into their final written enforcement policies
                  located in the “State Operations Manual,” section 7212.

                  The IDR process provides a nursing facility with an opportunity to
                  dispute cited survey deficiencies at the State level. After a nursing
                  facility has been cited for a survey deficiency, the State agency is required
                  to notify the facility in writing of the IDR opportunity. If the State agency
                  receives a written request from a nursing facility within the required
                  timeframe (10 calendar days), the IDR process then commences. The
                  State reviews documentation submitted by the nursing facility to dispute
                  deficiency citations. Additional steps may include an in-person interview
                  or telephone conference between nursing facility representatives and
                  State agency staff. As a final step, the State may send the nursing facility
                  a closure letter indicating the outcome of the review.2 Some States have
                  posted information about their IDR process on their health departments’
                  Web sites,3 and 27 States have incorporated an IDR process into their
                  State laws or regulations.4
                  Federal regulations and policy5 further specify that an IDR-disputed
                  deficiency should not be entered into CMS’s Online Survey, Certification,
                  and Reporting (OSCAR) system. Additionally, the disputed deficiency is
                  not supposed to be posted to CMS’s Nursing Home Compare Web site,
                  which is available for public reference, while the IDR case is pending. At
                  the conclusion of an IDR, upheld deficiencies are input into OSCAR and
                  subsequently made available on the Nursing Home Compare Web site.



OEI-06-02-00750   INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S        2
    I N T R O D   U C T      I O N


                   IDR Requirements. IDR requirements appear in Federal regulations at
                   42 CFR § 488.331 and in CMS’s “State Operations Manual.” section 7212.
                   Federal Regulations. The Federal regulations require:
                     1. 	 States to provide nursing facilities the opportunity for an IDR
                          review;

                     2. 	 States to provide written notification of the IDR process to nursing
                          facilities;

                     3. 	 any enforcement actions initiated as a result of the survey to
                          proceed, regardless of an IDR request; and

                     4. 	 in the event that the nursing facility’s dispute is upheld, State
                          removal of the deficiency from the statement of deficiencies and
                          rescission of any enforcement actions imposed solely as a result of
                          the disputed deficiency.
                   Centers for Medicare & Medicaid Services Policy. The “State Operations
                   Manual” provides CMS’s policy statement of specific requirements for the
                   IDR process following the citation of survey deficiencies, including that
                   each State is required to have a written policy available upon request.
                   The requirements for State IDR notifications, nursing facility IDR
                   requests, and State closure letters are shown in Table 1 on the next page.
                   Recent Federal Initiatives
                   Centers for Medicare & Medicaid Services. CMS is currently requiring that
                   States input IDR information into a new component of its Automated
                   Survey Processing Environment software. This software, the IDR
                   Manager, tracks and collects data on disputed surveys. However, the
                   functionalities of the IDR Manager have been used to varying degrees,
                   depending on the needs of the States. CMS has both an extramural pilot
                   study and a contracted grant underway to evaluate the effectiveness of
                   the current IDR process. Reports from these studies are anticipated in
                   early 2005, but are intended to serve as internal documents for CMS’s
                   useage.6,7,8




OEI-06-02-00750    INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S          3
    I N T R O D                    U C T            I O N



                                           Table 1: Requirements for State IDR Notification Letters,
                                           Nursing Facility IDR Requests, and State Closure Letters

                  State IDR Notification and Closure Letters                                                     Nursing Facility IDR Requests


          1) Each State must notify the nursing facilities of the availability of an       The nursing facility IDR request: 

             IDR in the letter from the State transmitting the official Form 

             CMS-2567, the Statement of Deficiencies. 
                                    1) must be in writing,

          2) State notification of the IDR process should inform the nursing               2) must be submitted within the same 10-calendar day period as for
             facility that the nursing facility’s IDR request:                                submitting an acceptable plan of correction to the State surveying
              a. must be in writing,                                                          entity,
              b.	 must be submitted within the same 10-calendar day period as 

                   for submitting an acceptable plan of correction to the State 
          3) must not be used to:

                   surveying entity, and 
                                                    a. delay the formal imposition of remedies and
              c. must include an explanation of the specific deficiencies being               b. challenge other aspects of the survey process, including:
                   disputed.                                                                     - scope and severity of cited deficiencies, except in those
                                                                                                    instances when the cited deficiency constitutes substandard
          3) State notification of the IDR process should also inform the nursing                   quality of care or immediate jeopardy;

             facility of some basic information about the State’s IDR, specifically: 
           - remedies imposed by the enforcing agency for cited
              a. how the IDR may be accomplished (e.g., by telephone, in                            deficiencies;
                   writing, or in a face-to-face meeting);                                       - allegation of failure of the survey team to comply with the
              b. the name, address, and telephone number of the contact                             survey process requirements;

                   person for requesting the IDR; and 
                                          - allegation of inconsistency of the survey team citing
              c. the name and/or position title of the person who will conduct the                  deficiencies among facilities; and 

                   IDR, if known.
                                                               -	 allegation of inadequacy or inaccuracy of the IDR process;
                                                                                                    and
          4) 	The State survey entity must notify the nursing facility in writing if
              the nursing facility is unsuccessful at demonstrating, during the IDR,       4) must include an explanation of the specific deficiencies being
              that a deficiency should not have been cited.                                   disputed.

          Source: CMS’s “State Operations Manual,” section 7212.




                                      METHODOLOGY
                                      We contacted 50 States for information about their IDR processes. We
                                      also selected a random sample of 415 IDR reviews done by 14 selected
                                      States in calendar year 2002. These 14 States represent 50 percent of the
                                      nursing facilities nationwide and 62 percent of the total number of
                                      deficiencies cited at scope (number of affected residents) and severity
                                      (degree of harm) levels E or above. These are the more serious
                                      deficiencies.




OEI-06-02-00750                       INFORMAL DISPUTE RESOLUTION            FOR   N U R SI NG FA CI LIT I E S                                                 4
    I N T R O D   U C T      I O N


                   We used the following sources of information for this inspection:
                   o 	 telephone interviews with all 50 State representatives having
                       responsibility for their respective IDR processes,
                   o 	 written State IDR policies from 48 of 50 States,

                   o 	 written case documentation for the sample of 415 IDR reviews from
                       the 14 selected States, and
                   o 	 onsite visits with 6 of the 14 selected States.

                   We analyzed this information to determine: (1) if States have the
                   required written IDR policy, available on request, and what information it
                   contains; (2) if States and nursing facilities actually perform the
                   Federally required key steps in each IDR case; (3) the extent to which the
                   IDR documentation itself, such as State notices to facilities, incorporated
                   the IDR requirements of the “State Operations Manual,” section 7212;
                   and (4) the total processing time and outcomes of cited deficiencies for the
                   documented IDR cases. Complete information regarding the inspection
                   methodology is provided in Appendix A
                   Inspection Limitations
                   This inspection has the following limitations:

                   o 	 We only examined the IDR process for standard surveys; we did not
                       include extended surveys, follow-up surveys, or complaint surveys
                       in our review. We used standard surveys because CMS requires
                       States to conduct a standard survey on all certified nursing facilities
                       at least once every 15 months. Other types of surveys occur as
                       needed.
                   o 	 We only examined the more serious deficiency citations of scope
                       (number of affected residents) and severity (degree of harm) levels E
                       or above.
                   o 	 We did not independently verify all of the information reported to
                       us by State IDR representatives during telephone discussions and
                       onsite visits, or reported to us from the State agencies through the
                       mail.
                   Inspection Conduct
                   We conducted this inspection in accordance with the Quality Standards
                   for Inspections issued by the President’s Council on Integrity and
                   Efficiency.


OEI-06-02-00750    INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S          5
     ∆
           F I N D I N G S

                                                               Compliance. Section 7212 of the
       Forty-eight of fifty States have written IDR
                                                               “State Operations Manual” requires
      policies that are available upon request, as             that all States have their IDR
   required; however, the content of their written             processes in writing so that they can
                                    policies varies.           be made available upon request.
                                                               Forty-eight States provided us with
                         copies of their written IDR policies as documentation of availability.

                         Alaska and Connecticut did not provide us copies of their own written
                         policies. Both States indicated that when facilities request written policy,
                         each State provides a copy of the IDR portion of the “State Operations
                         Manual.” State staff reported that IDR requests in Alaska are rare (3 in
                         15 years), whereas Connecticut processed approximately 88 IDR cases in
                         2003.
                         Written State Policy Content for 48 States. Federal regulations and policy
                         specify key steps of the IDR process, but they do not require inclusion of
                         these steps in each State’s written IDR policy. Nevertheless, we
                         compared, for informational purposes, the 48 States’ written policies with
                         the “State Operations Manual” requirements to determine the extent to
                         which they cover the whole IDR process. (See Appendix E.) Most States’
                         policies specify that the State will inform nursing facilities that IDR
                         requests should:
                         o 	 be in writing (44 States),

                         o 	 be submitted within a 10-calendar day period (43 States),

                         o 	 include an explanation of deficiencies (41 States), and

                         o 	 identify who will conduct the IDR review (42 States).

                         States’ written policies less often cover other requirements included in
                         the “State Operations Manual,” such as:
                         o 	 what the nursing facility IDR request cannot be used for, such as to
                             challenge the scope and severity of cited deficiencies, except in those
                             instances when the cited deficiency constitutes substandard quality
                             of care or immediate jeopardy (33 States); and
                         o 	 how the nursing facilities should be notified of the availability of an
                             IDR process (28 States).

                         Additionally, only four States (Arizona, Hawaii, Ohio, and Oklahoma)
                         provide examples of their standard IDR notification letters in their
                         written policies. These examples of letters have potential value for
                         providing clear guidance regarding that State’s IDR process.

OEI-06-02-00750          INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S          6
    F 	I N D I N G     S


                      We also compared the States’ written policies against the Federal
                      requirements to determine how accurately they reflect these
                      requirements. We found no inaccurate statements in States’ written
                      IDR policies in this comparison.
                      States’ written IDR policies show some differences between States’ IDR
                      processes. Some examples (see Appendix F for all of them) include:

                      o 	 whether a desk review will be performed (48 States),

                      o 	 the time limitation for an in-person or telephone conference
                           (13 States), and
                      o 	 the attendance limitations at an in-person conference (12 States).

                      Additionally, 48 States’ written policies indicate an opportunity for
                      participation in the IDR process by individuals not directly involved in
                      the survey that resulted in the disputed deficiency.9 At the same time,
                      40 States, including Alaska, reported that they routinely include the
                      original surveyors or survey representatives in the IDR process to provide
                      additional information or explanation, as needed, to questions which may
                      arise during the IDR review (25 States), to attend the IDR review as
                      nonparticipants (20 States), and to conduct the initial review (4 States).
                      Thirty-eight of forty-eight States’ written IDR policies do not specify time
                      limits for completion of the IDR process. There are no Federal regulations
                      or policy requiring and defining “timeliness” from receipt of a nursing
                      facility’s IDR request to the completion of the IDR review. Ten States’
                      policies specify time limits ranging from 10 to 40 days for their IDR
                      processes.



                                                               Based on documentary evidence,
  All 14 of the States, for which we reviewed case
                                                               interviews with State agency staff,
      documentation, are performing the IDRs and               and onsite State visits, we
      generally comply with the IDR requirements;              confirmed that all 14 selected States
  yet, most notification letters omit some required            are performing the Federally
                              technical information.           required IDR steps of sending
                                                               notification letters, receiving
                      requests from facilities, and informing facilities of IDR outcomes in
                      closure letters. For our sample of 415 IDR cases, we either obtained
                      copies of, or could infer the existence of, 99 percent of notification letters,
                      99 percent of nursing facility IDR requests, and 96 percent of closure
                      letters. Follow-up discussions with State staff suggested that cases


OEI-06-02-00750       INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S          7
    F   I N D I N G 
S


                             without all three letters were due to missing documents rather than the
                             basic IDR steps not being performed.

                             For the second part of this analysis, we reviewed case documentation for
                             the State notice and closure letters to determine the extent to which the
                             “State Operations Manual” requirements are included in both types of
                             correspondence between the State and nursing facilities.
                             State IDR Notification Letters
                             States’ IDR notification letters include most, but not all, of the required
                             information. Case documentation shows that each of the 14 selected
                             States uses a standard form letter that notifies nursing facilities of their
                             opportunity for requesting an IDR review but tailors the letter to each
                             nursing facility’s particular circumstances. Modifications include
                             specifying cited deficiencies and possible enforcement actions. All State
                             IDR notification letters provided information about IDR availability,
                             notified the nursing facility that the IDR request must be submitted in
                             writing within 10 calendar days, and indicated that the written IDR
                             request must include an explanation of specific deficiencies being
                             disputed. Other requirements concerning the details of the IDR process,
                             such as the method for conducting an IDR review, e.g., telephone, in
                             writing, or who will be conducting the IDR, often did not appear in the
                             notification letters. (See Table 2.)



                  Table 2: Required Information Included in 14 Selected States’ IDR Notification Letters*

                                                                                            Letters Including     Number of States’
                                                                                                Required        Standard Letters With
                       Required Information for Notification Letters
                                                                                              Information             Required
                                                                                                (n = 367)           Information*
                  Notification of this process should inform the facility of
                  some basic information about the State’s IDR process,
                  specifically:
                  a. how the IDR review may be accomplished (e.g., by                             37%                    3
                      telephone, in writing, or in a face-to-face meeting);
                  b. the name, address, and telephone number of the                               93%                    12
                      contact person for the IDR request; and
                  c. the name and/or position title of the person who will
                                                                                                  6%                      1
                      conduct the IDR review, if known.
                  * Because we received at least 1 notification form letter from each of the 14 States, we could determine how
                    many of the States included the required information in their notification letters.
                  Source: OIG analysis of State IDR notification letters (weighted).



                             Current CMS policy also requires that nursing facilities’ requests not be
                             used for certain purposes but does not prescribe that the State

OEI-06-02-00750              INFORMAL DISPUTE RESOLUTION     FOR   N U R SI NG FA CI LIT I E S                                   8
    F   I N D I N G 
S


                        notification letters contain this information. Nevertheless, we reviewed
                        the State notification letters for inclusion as a point of information. With
                        the exception of the notification letters specifying that requesting an IDR
                        review to delay the formal imposition of remedies is not permissible, most
                        letters did not include other required reasons for not requesting an IDR
                        review. (See Table 3.)


                                  Table 3: Inappropriate Reasons for an IDR Request Included
                                            In 14 Selected States Notification Letters
                                                                                                       Number of States’
                                                                               Letters Including
                                                                                                        Standard Letters
                      Inappropriate Reasons for Requests                     Inappropriate Reason
                                                                                                    Including Inappropriate
                                                                                   (n = 367)
                                                                                                            Reason*
                  Notification includes that the facility request
                  must not be used to:
                  a. delay the formal imposition of remedies;                              72%                 11
                  b. challenge the scope and severity of cited                             50%                  5
                     deficiencies, except in those instances
                     when the cited deficiency constitutes
                     substandard quality of care or immediate
                     jeopardy;
                  c. challenge the remedies imposed by the                                 18%                  2
                     enforcing agency for cited deficiencies;
                  d. allege failure of the survey team to comply                           36%                  3
                     with the survey process requirements;
                  e. allege inconsistency of the survey team                               36%                  3
                     citing deficiencies among facilities; and
                  f. allege inadequacy or inaccuracy of the IDR                            18%                  2
                     process.
                  * Because we received at least one notification form letter from each of the 14 States, we could
                    determine how many of the States included the required information in their notification letters.
                  Source: OIG analysis of State IDR notification letters (weighted).




                        State IDR Closure Letters
                        All closure letters to nursing facilities requesting IDR reviews met the one
                        applicable requirement to notify nursing facilities in writing when they have
                        been unsuccessful at demonstrating that a deficiency should not have been
                        cited. However, all 14 selected States routinely provide closure letters to
                        nursing facilities, regardless of outcomes. Further, 9 of the 14 selected
                        States consistently provided information in their closure letters concerning
                        all disputed deficiencies, rather than outcomes of only deficiencies changed
                        as a result of the IDR review.




OEI-06-02-00750         INFORMAL DISPUTE RESOLUTION    FOR   N U R SI NG FA CI LIT I E S                                9
    F   I N D I N G    S



     Nursing facility IDR requests typically met the         We reviewed case documentation to
                             Federal requirements.           determine the extent to which the
                                                             nursing facility IDR requests met
                                                             “State Operations Manual”
                      requirements. (See Table 4.) All requests, except one by telephone, were
                      submitted in writing. Eighty-six percent included an explanation of
                      specific deficiencies being disputed. Of the IDR cases with sufficient
                      documentation to analyze, 91 percent cited appropriate reasons for the
                      IDR requests.

                                                   Table 4: Requirements Met in
                                        Nursing Facility IDR Requests for 13 Selected States*

                                                                                               IDR Requests Meeting
                                        Requirement for IDR Requests                               Requirements
                                                                                                     (n = 371)

                        Submitted in writing                                                             99%

                        Included an explanation for specific disputed deficiencies                       86%

                        Provided correct reasons for the IDR request                                     91%

                        Submitted timely**                                                               86%

                         * Massachusetts was excluded from this review.
                        ** We defined “timely” as the request being submitted within 15 days (a few days for the State’s
                           notification letter to reach the facility by mail, 10 days to respond, and a few days for the
                           State to receive the IDR request).
                        Source: OIG analysis of nursing facility IDR requests.


                      The 9 percent of facilities using an incorrect reason for an IDR request,
                      namely, challenging the scope and severity of cited deficiencies, were
                      significantly10 more likely to be in States that did not provide this
                      information in their State notification letters. Further, none of the
                      nursing facilities comprising the 9 percent was refused an IDR review by
                      the States.

                      Nursing facilities largely adhere to the 10-calendar day request
                      requirement, when additional days are allowed for mail receipt and
                      return. The “State Operations Manual” requires nursing facilities to
                      submit their IDR requests within the same 10-calendar day period for
                      submission of an approved plan of correction, i.e., it is required within
                      10 days of the nursing facility’s receipt of the official Statement of
                      Deficiencies, form CMS-2567. The CMS-2567 usually accompanies the
                      State IDR notification letter.

                      Allowing a few days for the State’s notification letter to reach the facility
                      by mail, 10 days to respond, and a few days for the State to receive the

OEI-06-02-00750       INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S                               10
    F   I N D I N G    S


                      IDR request (we allowed 15 days total), 86 percent of the IDR requests fell
                      within the required timeframe. Late submission of an IDR request does
                      not appear to impact whether an IDR review is performed by a State; only
                      one Texas nursing facility was refused an IDR review for not meeting a
                      timeframe requirement.

                      Ten of the fourteen selected States define the 10-calendar day period for
                      requesting an IDR review in their written policies. Seven of the ten use
                      the same definition as the “State Operations Manual” requirement for the
                      plan of correction, with no mention of days allowed for mailing. Two of
                      the ten use a more restrictive definition11 and one specifies an actual due
                      date in the State IDR notification letters.



  Eighty percent of the IDR cases were completed             Timeliness. We paired each nursing
    within 60 days, and 45 percent of the disputed           facility IDR request letter with its
                                                             corresponding State closure letter.
         deficiencies resulted in citation changes.
                                                             Eighty percent of the pairs showed
                      completion of IDR cases within 60 days, 13 percent took 61 to 90 days,
                      and 7 percent took more than 90 days. Overall, time for completion of
                      cases in our selected States (excluding Massachusetts) ranged from 2 to
                      312 days.

                      Federal regulations and policy do not define “timely” completion of an IDR
                      case review, although the failure to complete an IDR review will not delay
                      the effective date of any enforcement action. However, Federal
                      regulations and policy allow nursing facilities to file a formal appeal and
                      an IDR request concurrently. The nursing facility may file a formal
                      appeal request within 60 days of the facility’s receipt of the formal notice
                      of the imposition of any enforcement remedies, resulting from the cited
                      survey deficiencies. If the outcome of an IDR review is in the nursing
                      facility’s favor, e.g., deletion or lowering of scope and severity level for the
                      cited deficiency, even though not requested by the nursing facility, the
                      nursing facility may choose not to file a request for a formal appeal,
                      assuming that the outcome is known before 60 days have elapsed, or the
                      nursing facility can withdraw the concurrent request for a formal appeal
                      made early in the process.




OEI-06-02-00750       INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S           11
    F   I N D I N G 
S


                    Outcomes. Of the initially disputed 1,211 deficiencies from 347 cases,
                    45 percent had a change in citation, almost always in the nursing
                    facility’s favor. (See Table 5.) An IDR outcome may be considered in the
                    facility’s favor if the disputed deficiency is deleted, “lessened” in impact by
                    a modification to how the disputed citation is written, e.g., one or more
                    examples are deleted from the citation, or lowered in scope and severity
                    level, even though not requested by the nursing facility.

                    Of the deficiency citations that were changed, 19 percent had
                    modifications to the way the deficiency was written, and 19 percent had
                    the citation deleted. An increase in the scope and severity level of the
                    disputed deficiency for the nursing facility, a negative outcome of an IDR
                    review, appears to happen rarely. Insufficient outcome information was
                    documented for 3 percent of the reviewed cases.



                                           Table 5: IDR Outcomes for Disputed Deficiencies
                                                                                          Percent of 1,211 Disputed
                                               IDR Outcomes                                      Deficiencies
                                                                                               (n = 347 cases)
                         No change in citation                                                       52%

                         Changes in citation                                                         45%
                           - Modification to the way the deficiency was written                      19%
                           - Deletion of cited deficiency                                            19%
                           - Decrease in scope and severity level                                     6%
                           - Increase in scope and severity level                                    <1%

                         Insufficient information provided in the letter                              3%
                         Source: OIG analysis of 347 paired nursing facility IDR requests and State IDR closure letters.




OEI-06-02-00750     INFORMAL DISPUTE RESOLUTION      FOR    N U R SI NG FA CI LIT I E S                             12
  ∆
        R E C O M M E N D A T I O N S

                    We found substantial State and nursing facility compliance with
                    requirements for the IDR process. We also identified a few technical
                    compliance issues as well as opportunities for improvements to the IDR
                    process under CMS’s leadership. We recognize that our findings about
                    IDR performance are statistically projectable only to the 14 selected
                    States and their IDR cases. However, these findings would likely be
                    useful for improving IDR processes in all States. The following
                    recommendations and opportunities for improvement are offered to CMS
                    as possible ways to help all States to strengthen their IDR policies and
                    practices.




                    RECOMMENDATIONS
                    CMS should secure compliance of States’ IDR policies and practices
                    with requirements by:
                    Ensuring that all States have written IDR policies. Alaska and
                    Connecticut do not technically comply with the requirement for having
                    their own written IDR policies. Instead, these two States provide copies of
                    the IDR portion of CMS’s “State Operations Manual” to nursing facilities
                    requesting information. CMS should require the two States without the
                    required written IDR policies to prepare them. Alternatively, CMS should
                    review the two States’ practice to determine if it meets the requirement for
                    a State to have a written IDR policy and if the “State Operations Manual”
                    IDR section alone is sufficient to fully inform nursing facilities about the
                    IDR process.
                    Ensuring that States include all required information in their IDR
                    notification letters to the nursing facilities. We found that the specific
                    information required by the “State Operations Manual” regarding how
                    and by whom the IDR review would be conducted is missing from State
                    notification letters to varying degrees. To correct this, CMS could remind
                    States, in writing, of the requirement for including this information,
                    e.g., develop a template or standard notification letter for adaptation by
                    the States, and periodically review States’ letters for inclusion of these
                    requirements.
                    OPPORTUNITIES FOR IMPROVEMENT
                    We also noticed two areas for improvement of the IDR notification,
                    request, and closure processes which are not compliance issues, but could
                    improve the IDR process.

OEI-06-02-00750     INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S        13
    R   E C O     M M E N D A T          I O N            S


                      Written IDR Policies. CMS may wish to consider emphasizing to all States
                      the benefit of including all IDR requirements contained in regulation and
                      the “State Operations Manual” in their own written policies, along with
                      discussion of their individual State practices. While the actual content of
                      States’ written policies is at the State’s discretion, the written policies are
                      likely used by State staff in administering their IDR processes, as well as
                      informing interested parties, such as nursing facilities. We found that at
                      least 14 of 48 States’ written policies do not address what an IDR review
                      cannot be used for. (See Appendix E.) Further, the “State Operations
                      Manual” policy is unclear if States are required to include this information
                      in their IDR notification letters to the nursing facilities. Twenty of forty-
                      eight States’ written IDR policies do not include information indicating how
                      facilities should be notified about the availability of the IDR process.
                      We offer several options for CMS’s encouraging completeness of States’
                      written IDR policies: (1) share this report with States, emphasizing findings
                      about written State policy; (2) suggest, in writing, that each State’s policy
                      could benefit from incorporating the “State Operations Manual” IDR
                      sections into their written policy; and (3) suggest, in writing, that States
                      incorporate a sample State IDR notification letter into the written policy,
                      which currently only four States (Arizona, Hawaii, Ohio, and Oklahoma)
                      provide.
                      Timeframe for States’ Completion of IDR Reviews. The IDR process can
                      potentially save Federal, State, and facility dollars through the avoidance of
                      a lengthy, formal appeal process. The nursing facility may file a formal
                      appeal request within 60 days of the facility’s receipt of the formal notice of
                      the imposition of any enforcement remedies resulting from the cited survey
                      deficiencies, and we found that 80 percent of the IDR cases were completed
                      within 60 days. To enhance the possibility that nursing facilities can avoid
                      formal appeals by using the IDR process, CMS’s defining an explicit
                      timeframe of something less than 60 days for IDR completion appears
                      feasible and useful. Federal regulations and policy do not define “timely”
                      completion of an IDR case, although the failure to complete an IDR review
                      will not delay the effective date of any enforcement action against the
                      nursing facility. At the same time, only 10 of 48 States’ IDR written policies
                      identify self-imposed timeframe limitations for completing an IDR case.
                      Another benefit of setting a time limit for IDR case completion is that until
                      the case is completed, any deficiency citation under dispute is not placed on
                      CMS’s Nursing Home Compare Web site. Lack of timeliness also
                      compromises the integrity of the OSCAR system data.


OEI-06-02-00750       INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S        14
    R   E C O     M M E N D A T          I O N            S


                      AGENCY COMMENTS

                      CMS concurred with our recommendations and opportunities for
                      improvement. The agency further commented they have already begun
                      work to ensure that all States maintain written policies and that States
                      review their policies for consistency with the minimum requirements
                      listed in Federal regulations and the State Operations Manual.
                      Furthermore, while CMS believes no immediate action is needed to
                      specify a timeframe in which the IDR process must be completed, the
                      agency has established it as a topic at the 2005 annual meeting with the
                      State agencies.

                      CMS also provided technical comments for which we made revisions
                      where appropriate. The full text of CMS’s comments is presented in
                      Appendix G.




OEI-06-02-00750       INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S      15
  ∆         A P P E N D I X            ~      A



                                                        Inspection Methodology
                    We used four sources of information in this inspection:

                    o 	 telephone interviews with all 50 State representatives having
                        responsibility for their respective IDR processes,
                    o 	 written State IDR policies from 48 of 50 States,

                    o 	 cases with written documentation from a stratified random sample
                        of IDR cases within 14 selected States, and
                    o 	 onsite visits with 6 of the 14 selected States.

                    Telephone Interviews. We first interviewed the State representative for
                    each of the 50 States. We used a standardized questionnaire to ask each
                    about available written IDR policy and process. We also conducted
                    subsequent follow-up discussions with IDR representatives from the
                    14 selected States. We gathered information regarding how each State
                    notifies nursing facilities of the availability of the IDR process and how it
                    conducts the IDR review.
                    Written State IDR Policies. We asked all 50 States to provide written
                    documentation of their IDR processes; 48 of the 50 States provided the
                    information. This documentation: (1) validated whether each State has
                    the required written IDR policy and its availability upon request, and
                    (2) provided the content of the written policies for review. As previously
                    noted, Federal regulations and policy do not specify any requirements for
                    the content of States’ written IDR policies. Nevertheless, for
                    informational purposes, we reviewed the extent to which States’ written
                    policies included IDR procedural requirements from the “State Operations
                    Manual.” (See Table 1 on page 4.)
                    Random Sample of IDR Cases within 14 Selected States

                    There is no national listing of IDR cases from which to sample. Therefore,
                    we used a two-step process to identify a group of States from which to
                    sample the IDR cases:
                    o 	 identification of States having the highest number of deficiencies
                        cited at E or above during calendar year (CY) 2002 standard
                        surveys of nursing facilities12 and
                    o 	 determination of the number of nursing facilities in each of those
                        States.


OEI-06-02-00750     INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S          16
    A   P P E N D   I X ~    A


                    CMS classifies deficiencies cited by standard surveys of nursing facilities
                    on a scale of A through L according to their scope and severity.13 The
                    “severity” of the deficiency refers to the degree of harm, while the “scope”
                    of the deficiency refers to the number of affected residents.

                    We used CMS’s OSCAR system to identify for each State the total number
                    of deficiencies cited during standard surveys of nursing facilities at scope
                    and severity levels greater than or equal to E during CY 2002. We ranked
                    this listing by State from highest to lowest number of deficiencies. We
                    then identified the number of certified nursing facilities in each State.
                    We selected States from highest to lowest number of deficiencies until we
                    had selected States representing at least 50 percent of the nursing
                    facilities nationwide. This resulted in our selection of 14 States,
                    representing 62 percent of the total number of deficiencies cited at E or
                    above, and 50 percent of the nursing facilities. These selected 14 States
                    were California, Florida, Indiana, Kansas, Louisiana, Massachusetts,
                    Michigan, Missouri, New York, Ohio, Oklahoma, Tennessee, Texas, and
                    Washington.14 (See Appendix B.)
                    To generalize to the 14 States, we treated each State as a separate
                    stratum. The number of IDR cases sampled within each State was
                    determined by the State’s population of IDR cases. If a State had 35 or
                    fewer IDR cases, we sampled all of them. If a State had more than
                    35 IDR cases, we randomly selected a sample of 35 cases. From our
                    population of 893 IDR cases from the 14 selected States, we randomly
                    chose a total of 415 cases for analysis. (For further details of the sample
                    selection process, see Appendix C.)
                    Data Collection. For each of the 415 sampled IDR cases, we requested case
                    documentation from the States comprised of:
                    o   the State IDR notification letter to the nursing facility,

                    o   the nursing facility IDR request, and

                    o   the closure letter resulting from the completed IDR sent by the
                        State to the nursing facility.

                    We did not receive the same number of each of these three documents
                    from the sampled cases. Only 4 of the14 selected States provided all the
                    requested documentation. Across all 415 cases, we actually received
                    documentation for 367 State notification letters to nursing facilities,
                    371 nursing facility IDR requests, and 400 closure letters. Massachusetts
                    provided no nursing facility IDR requests, only one of the requested
                    notification letters, and all requested closure letters. While missing

OEI-06-02-00750     INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S        17
    A   P   P E N D   I X      A


                      documentation limited our data analysis in some instances, we were able
                      to make assumptions about the process, which we discuss below. (For
                      details, see Appendix C.)
                      Data Analysis. We examined documentation from the sampled IDR cases
                      to determine State practice from three perspectives: (1) actual
                      performance of the Federally required key steps in each IDR case,
                      (2) the extent to which the IDR documentation incorporated the IDR
                      requirements of the “State Operations Manual,” Section 7212, and (3)
                      the total processing time and outcomes of cited deficiencies for the
                      documented IDR cases.

                      (1) 	Performance of the IDR steps for notification, request, and closure.

                            We considered documentation for each of the IDR cases as
                            confirmation that the IDR process steps of notification, request, and
                            closure had occurred. In some cases documentation was missing for
                            the IDR notification and subsequent request. We did receive
                            documentation for 400 closure letters. Using the documentation
                            received, we were able to infer that a certain step in the IDR process
                            had probably occurred. For example, since a closure letter would
                            not be generated unless an IDR had been requested, we assumed for
                            the analysis that the notification and request had occurred. We
                            concluded that of the 415 cases, there was a State notification letter
                            for 413 cases and nursing facility requests for 412 cases, although
                            we did not always see all of the documents. This was the only
                            analysis for which we used inferred data.

                      (2) 	Extent to which IDR case documentation incorporated the
                           requirements of the “State Operations Manual,” section 7212.

                            We compared the language of each of the three types of documents
                            received for each IDR case to the “State Operations Manual”
                            requirements. For this analysis, we used the documents we
                            actually received, which consisted of 367 State notification letters to
                            nursing facilities, 371 nursing facility IDR requests, and 400 State
                            closure letters.

                            We also compared the dates on the notification letters and nursing
                            facility requests. This identified whether the nursing facility IDR
                            requests were received within the same 10-calendar day period
                            required for submitting an acceptable plan of correction to the State
                            survey entity. Although the “State Operations Manual” requires 10
                            days to respond, in our analysis, we used a conservative approach,


OEI-06-02-00750       INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S          18
    A   P   P E N D   I X      A


                            allowing 15 days total from the time a State notification letter was
                            sent to the time the State received the IDR request.

                      (3) 	Total IDR processing time for documented sample IDR cases and
                           documented outcomes of cited/disputed deficiencies through the IDR
                           process.

                            Processing Time. Available documentation allowed us to match 347
                            cases where we had both the IDR facility request and the State
                            outcome letter. This subset of cases allowed us to calculate the
                            number of days for completing the IDRs.

                            IDR Outcomes. We compared the documented 400 IDR closure
                            letters to their corresponding nursing facility IDR request letters to
                            create a subset of 347 paired IDR cases documenting           1,211
                            initially disputed deficiencies for which we could identify outcomes.

                      Since our sampling frame did not include all 50 States, reported
                      statistical estimates apply only to the 14 selected States. However, we
                      believe the inspection’s findings will be informative to all States. These
                      estimates and their confidence intervals were computed using SAS and
                      SUDAAN statistical software packages. (See Appendix D for confidence
                      intervals.)
                      Onsite State Visits. We conducted on-site visits with 6 of the 14 selected
                      States to better understand their IDR processes. We met with managers
                      and staff who provided us with a “walk through” of their IDR processes. In
                      some instances, we attended actual in-person and telephone conferences,
                      which followed the initial desk reviews.




OEI-06-02-00750       INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S          19
                                             Calendar Year 2002 State Nursing Facilty IDR Requests
                                According to the 14 selected States , 5, 042 standard surveys for nursing
                                facilities were conducted in CY 2002. Ofthese , the States initially
                                identified that 934 resulted in an IDR request from the nursing facilties.
                                From this 934 , we drew an initial sample of 437 for review.
                                Subsequently, the 14 States conducted a second review of the 437 and
                                identified that 22 ofthese , from 8 ofthe 14 States , were incorrectly
                                reported as resulting in an IDR request , therefore resulting in a usable
                                sample of 415 cases.
                                To estimate the reduced population of IDR cases in the 14 selected States
                                we used the sample proportion of actual IDR cases within the 8 States
                                where the State incorrectly reported the number of cases. Therefore , we
                                assumed that in each of the eight States , the original population would be
                                reduced by the same proportion as the sample.     This resulted in 893
                                CY 2002 IDR requests for the 14 selected States as shown in Appendix C.

                                     Nursing Facilty IDR Requests by State for CY 2002 Surveys Citing
                                         Deficiencies at Scope and Severity Levels of E or Higher


                                            Number of         IDRs Initially                         Adjusted Percent
                                                              Identified as           Adjusted
                            States           CY 2002                                Number of IDRs     of Surveys
                                             Surveys           Requested                             Resulting in IDR
                                                              (unadjusted)            Requested
                                                                                                        Requests
                     California                656
                     Florida                   557                                                        10%
                     Indiana                   276                                                        19%
                     Kansas                    217                                                        25%
                     Louisiana                 235                                                        11%
                     Massachusetts             225                                                        15%
                     Michigan                  300                                                        21%
                     Missouri                  342
                     New York                  436                 137                   125              29%
                     Ohio                      546                192                    187              34%
                     Oklahoma                  205                                                        15%
                     Tennessee                 226                                                        15%
                     Texas                     627                153                   153               24%
                     Washington                194                                                        27%
                               TOTAL            042               934                   893               18%
                     Source: OIG OSCAR extract for CY 2002.


OEI. 06. 02. 00750             INFORMAL DISPUTE RESOLUTION FOR NURSING FACILITIES
  ∆          A P P E N D I X                        ~       D
                                                            C




                              Calculated Weights for Selected States’ IDR Cases*

                               Adjusted Number of
                               IDRs Requested for
            States
                                CY 2002 Surveys                  Sampled IDR Cases                Calculated Weights
                                       (A)                              (B)                              (A/B)
    California*                           15                                     15                         1.00
    Florida*                              55                                     32                         1.72
    Indiana                               53                                     35                         1.51
    Kansas*                               54                                     32                         1.69
    Louisiana                             26                                     26                         1.00
    Massachusetts                        33                                      33                         1.00
    Michigan*                             64                                     34                         1.88
    Missouri*                             12                                     12                         1.00
    New York*                            125                                     32                         3.91
    Ohio*                                187                                     34                         5.44
    Oklahoma                              30                                     30                         1.00
    Tennessee*                            34                                     30                         1.13
    Texas                                153                                     35                         4.37
    Washington                            52                                     35                         1.49

                  TOTAL                  893                                    415                         2.15
    * The 14 selected States initially identified 934 surveys resulting in IDR requests. A second review of the requested
      sample of 437 IDRs by these 8 States showed they had incorrectly reported 22 surveys that resulted in an IDR
      request. This lowered the number of surveys, from which the 415 sampled IDR cases were drawn, from 934 to
      893 (weighted).
     Source: OIG analysis of State-provided documentation for requested IDR cases.




OEI-06-02-00750                INFORMAL DISPUTE RESOLUTION    FOR   N U R SI NG FA CI LIT I E S                             21
  ∆          A P P E N D I X                            ~        D



                       Point Estimates and Confidence Intervals for IDR Requirements
                                                                                                Percent Affirmative
                                                                                                                         Percent (+/-)
                                                                                                 Response Point
                  “State Operations Manual”-Requirements                                                                 Confidence
                                                                                                     Estimate
                                                                                                                           Interval
                                                                                                   (weighted)*
     State IDR Notice
     State notifies nursing facilities of IDR availability in the letter from the                      100 (n = 367)         N/A
     State transmitting the official Form CMS-2567, Statement of Deficiencies.
     Notice informs facility that the request must:
      a. be in writing,                                                                                100 (n = 367)         N/A
      b. be submitted within the same 10-calendar day period as plan of                                100 (n = 367)         N/A
          correction, and
      c. include an explanation of the specific deficiencies disputed.                                 100 (n = 367)         N/A
     Notice informs facility of :
      a. how the IDR may be accomplished;                                                               37 (n = 331)         1.3
      b. the name, address, and telephone number of contact person for                                  93 (n = 365)         0.5
          requesting the IDR; and
      c. the name and/or position title of the person who will conduct the IDR,                         6 (n = 364)          0.7
           if known.
     State agency will notify the nursing facility in writing if the IDR outcome is
                                                                                                        22 (n = 361)         1.4
     not in the facility’s favor.
     Notice includes that the request must not be used to:
      a. delay the formal imposition of remedies,                                                       72 (n = 367)         0.9
      b. challenge the scope and severity of cited deficiencies,                                        50 (n = 367)         0.9
      c. challenge the imposed remedies for cited deficiencies,                                         18 (n = 367)         0.7
      d. allege failure of survey team to comply with survey requirements,                              36 (n = 367)         0.9
      e. allege inconsistency of survey team citing deficiencies among                                  36 (n = 367)         0.9
          facilities, and
       f. allege inadequacy or inaccuracy of the IDR process.                                           18 (n = 367)         0.7
     Nursing Facility IDR Request
     Request was submitted in writing.                                                                 99.8 (n = 371)        0.2
     Request was submitted within the same 10-calendar day period as plan of
                                                                                                        86 (n = 343)         3.3
     correction.*

     Request included an explanation of the disputed deficiencies.                                      86 (n = 349)         1.8

     Request provided correct reasons for requesting the IDR.                                           91 (n = 284)         2.7

         (Of 9 percent not requesting correctly, attempted to                                          (100 [n = 33])       (N/A)
         challenge deficiency scope and severity.)
     State Closure Letter
     Closure letter was provided to facility, regardless of IDR outcome.                               99.9 (n = 400)        0.1
     1,211 Deficiencies Disputed
     No change in deficiency citation.                                                             52.2 (n = 1,211)          0.04
     Changes in deficiency citation:                                                               25.7 (n = 1,211)          0.03
      a. modification to how deficiency was written,                                                    (74.3)
      b. increase in scope and severity level, and                                                       (1.5)
      c. decrease in scope and severity level.                                                          (24.2)

     Deletion of cited deficiency.                                                                 18.9 (n = 1,211)          0.03

     Insufficient information on disputed deficiency IDR outcome.                                      3.1 (n = 1,211)       .008

     * Weighted responses for affirmative responses are for received documentation and do not include in the calculation
       any missing documentation.
     Source: OIG analysis of State-provided documentation for requested IDR case documentation.


OEI-06-02-00750                      INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S                                     22
  ∆         A P P E N D I X                          ~      E



                             Requirements Included in States’ Written IDR Policies
                                                                                                       Number of
                             “State Operations Manual”-Requirements
                                                                                                        States

     The State will notify the facilities of the availability of an IDR in the letter from the State      28
     transmitting the official Form CMS-2567, Statement of Deficiencies.

     Notification should inform the facility that the request must:
      a. be in writing,                                                                                   44
      b. be submitted within the same 10-calendar-day period as for submitting an                         43
           acceptable plan of correction to the State surveying entity, and
      c. include an explanation of the specific deficiencies being disputed.                              41

     Notification should also
      a. inform the facility how the IDR may be accomplished (e.g., by telephone, in writing,             39
           or in a face-to-face meeting);
      b. inform the facility of the name, address, and telephone number of the contact                    35
           person for requesting the IDR; and
      c. include the name and/or position title of the person who will conduct the IDR, if                42
           known.

     State survey entity must notify the nursing facility in writing if the facility is unsuccessful      41
     at demonstrating during the IDR that a deficiency should not have been cited.

     The facility request must not be used to:
      - delay the formal imposition of remedies;                                                          34
      - challenge the scope and severity of cited deficiencies, except in those instances                 33
        when the cited deficiency constitutes substandard quality of care or immediate
        jeopardy;
      - challenge the remedies imposed by the enforcing agency for cited deficiencies;                    31
      - allege failure of the survey team to comply with the survey process requirements;                 30
      - allege inconsistency of the survey team citing deficiencies among facilities; and                 32
      - allege inadequacy or inaccuracy of the IDR process.                                               29
     Source: OIG analysis of 48 States’ written IDR policies describing procedures.




OEI-06-02-00750                 INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S                    23
  ∆         A P P E N D I X                          ~       F



                              Additional Information in Written State IDR Policies

                                                                                                     Number of
                       Additional State IDR Practices in Written Policies                              States
                                                                                                       (n = 48)
         Indicates conducting desk reviews of submitted documentation concerning disputed
                                                                                                        48
         deficiencies.
         Specifies a maximum amount of time permitted for the in-person or telephone
                                                                                                        13
         conferences.

         Limits attendance at in-person conferences.                                                    12

         Defines the amount of time in which a decision must be made from the date of the
                                                                                                        10
         request.

         Prohibits attorney presence at IDRs.                                                            7

         In-person conferences will be held based on the scope and severity levels of
                                                                                                         7
         deficiencies under dispute.

         Provides conditions for overturning or deleting deficiencies.                                   6

         Limits IDRs to record reviews with no subsequent conferences.                                   5

         Telephone conferences will be held based on the scope and severity levels of
                                                                                                         5
         deficiencies under dispute.

         Requires prior approval for attendees to in-person conferences.                                 3

         No IDR conference will be held for any deficiencies cited at scope and severity levels of
                                                                                                         2
         C or below.

         In-person conferences will be the only means by which an IDR will be held.                      2

         Source: OIG analysis of State written IDR processes.




OEI-06-02-00750                INFORMAL DISPUTE RESOLUTION     FOR   N U R SI NG FA CI LIT I E S                  24
  ∆         A P P E N D I X            ~      G




OEI-06-02-00750     INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S   25
    A P P E N D   I X ~ G 





OEI-06-02-00750   INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S   26
    A P P E N D   I X ~ G 





OEI-06-02-00750   INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S   27
    A P P E N D   I X ~ G 





OEI-06-02-00750   INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S   28
  ∆
        A C K N O W L E D G M E N T S

                    This report was prepared under the direction of Judith V. Tyler, Regional
                    Inspector General for Evaluation and Inspections in the Dallas regional
                    office, and Kevin Golladay, Assistant Regional Inspector General. Other
                    principal Office of Evaluation and Inspections staff who contributed
                    include:

                    Leah K. Bostick, Project Leader
                    Diahann L. Williams, Program Analyst

                    Sandy Khoury, Program Specialist



                    Technical Assistance: 


                    Barbara Tedesco, Mathematical Statistician





OEI-06-02-00750     INFORMAL DISPUTE RESOLUTION   FOR   N U R SI NG FA CI LIT I E S     29
  ∆
        E N D   N O T E S




                    1   42 CFR Part 488, Subpart F, Enforcement of Compliance for Long-Term
                        Care Facilities with Deficiencies, and “State Operations Manual”
                        Chapter 7, Survey and Enforcement Process.

                    2   The State agency is required to provide written outcome information to
                        the nursing facility only when the provider has been unsuccessful in its
                        dispute of the deficiency.

                    3   Within each State’s Internet site, we conducted a search for information
                        regarding the State IDR processes. As of February 2004, only 14 of
                        50 States have specific IDR process information available to the public:
                        Idaho, Kansas, Kentucky, Massachusetts, Michigan, Minnesota,
                        Montana, North Carolina, New Jersey, Pennsylvania, Texas,
                        Washington, West Virginia, and Wisconsin. Twenty-seven of fifty
                        States have incorporated an IDR process into their written State law or
                        regulation.

                    4   Thompson Publishing Group, Nursing Home Regulations Manual,
                        Tab 900, State Licensing and Enforcement; pp. 41-62, May 2001.

                    5   42 CFR § 488, Enforcement of Compliance for Long-Term Care
                         Facilities with Deficiencies, and “State Operations Manual” Chapter 7.

                    6   “The Active Projects Report, 2002 Edition” (number 00-175),
                        “Evaluation of Independent Informal Dispute Resolution Process
                        (IDR),” and ongoing conversations with CMS Project Officer.

                    7   Texas Assisted Living Association, TALA Update, March/April 2002.

                    8   American Association of Facilities and Services for the Aging, Health
                        Policy Bulletin (Web article), CMS Selects States to Participate in IDR
                        Project, September 24, 2001.

                    9   As encouraged by “State Operations Manual,” section 7212 C(9).

                    10   We used a chi-square statistic to determine whether the responses to
                         the question asking if the State notification letter includes the
                         required reasons for not requesting an IDR was significantly related to




OEI-06-02-00750                 INFORMAL DISPUTE RESOLUTION   FOR   N UR S I NG FA CI LI TI E S   30
                       the responses to the question asking if the nursing facility
                       appropriately (or inappropriately) requested an IDR. The probability
                       of error threshold is less than or equal to 0.05; thus, the distribution is
                       significant.

                  11   The more restrictive definition of the 10-calendar day period starts
                       from the date on the notice letter or from the survey exit conference.

                  12   While there is not a one-to-one relationship between the number of
                       IDRs and the number of nursing facility standard surveys in each
                       State, we believe this represents a good approximation of which States
                       may have a high volume of IDRs. We also believed that nursing
                       facilities with higher levels of scope and severity ratings for their
                       deficiencies may be more apt to request an IDR; 70 percent of the State
                       respondents subsequently concurred.

                  13   The following table was developed by CMS to provide clarity regarding
                       severity and scope levels for cited nursing facility surveys.


                                                 Severity and Scope of Nursing Facility Survey Deficiencies

                                                                                                            Deficiency Scope
                                           Severity Category*
                                                                                             Isolated           Pattern        Widespread
                        Actual or potential for death or serious injury (immediate
                                                                                                 J                 K                L
                        jeopardy)
                        Actual harm that is not immediate jeopardy                               G                 H                 I
                        Potential for more than minimal harm                                     D                 E                F
                        Potential for minimal harm, substantial compliance exists                A                 B                C
                        * A fifth severity category, “substandard quality of care,” includes deficiencies in the areas of patient behavior
                          and facility practices, quality of life, and quality of care. These fall into the shaded categories above.
                        Source: Centers for Medicare & Medicaid Services, Form HSQ-156-F


                  14   Office of Inspector General, Office of Evaluation and Inspections,
                       Technical Support Staff’s extract of the OSCAR system on
                       July 28, 2003, for CY 2002. Of the initial 14 States, 1 State
                       (Pennsylvania) indicated during preinspection that it would be unable
                       to participate. As this was a purposive sample, and in the interest of
                       resource limitations, we subsequently replaced that State with the 15th
                       State on our list.




OEI-06-02-00750                   INFORMAL DISPUTE RESOLUTION           FOR   N UR S I NG FA CI LI TI E S                                31
